                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS
                                     ,
                                    CLOSEOUT MEMORANDUM

Case Number: AIIII0072                                                         Page 1 of 1

                                      !
         We received an allegation that a senior NSF employee! had: traveled without prior
         approval or authorization, f.ailed to do assigned work, and entered erroneous
         information in NSF's time and attendance system to cover being absent without
         approved leave. We learned IINSF's human resources and legal departments were
         aware of these issues, had conducted a managerial investigation, and were ready to
         take action. After discussion }¥ith NSF, we agreed the issues were better addressed
         by NSF management, so we referred our investigation to NSF. Accordingly, this
         case is closed.




              1   [redacted].




NSF OIG Fonn 2 (1lI02)
